          Proprietary Information Redacted




      IMPLEMENTATION OF THE
COMMUNICATIONS ASSISTANCE FOR LAW
  ENFORCEMENT ACT BY THE FEDERAL
     BUREAU OF INVESTIGATION

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

            Audit Report 04-19
                April 2004




          Proprietary Information Redacted
             Proprietary/Commercial Information Redacted


             IMPLEMENTATION OF THE
        COMMUNICATIONS ASSISTANCE FOR
              LAW ENFORCEMENT ACT
    BY THE FEDERAL BUREAU OF INVESTIGATION*

                        EXECUTIVE SUMMARY
      Criminal organizations and individuals frequently use the
telecommunications systems of the United States in the furtherance of
serious violent crimes, including terrorism, kidnapping, extortion, organized
crime, drug trafficking, and corruption. One of the most effective tools law
enforcement uses to investigate these crimes is court -authorized electronic
surveillance. According to Federal Bureau of Investigation (FBI) personnel,
however, continuing advances in telecommunications technology have
impaired and in some instances prevented telecommunication carriers
(carriers) from assisting law enforcement to conduct authorized electronic
surveillance.

      Electronic surveillance is provided for in Title III of the Omnibus Crime
Control and Safe Streets Act of 1968 and the Electronic Communications
Privacy Act of 1986, which extended authorized lawful electronic surveillance
to communications transmitted via wireless technology. In October 1994,
Congress enacted the Communications Assistance for Law Enforcement Act
(CALEA) because of concerns that advances in telecommunications
technology, such as cellular telephones and features such as call forwarding
and multiparty calls, could limit the effectiveness of lawful electronic
surveillance, especially at the state and local level. Law enforcement
agencies at the state and local level often do not have the same level of
resources or technical ability to conduct electronic surveillance as do federal
law enforcement agencies. Because of this, CALEA required that carriers
deploy electronic surveillance standards to ensure that technological
advances in the telecommunications industry (industry) would not
compromise the ability of law enforcement agencies to engage in lawful
electronic surveillance.




      * BECAUSE THIS REPORT CONTAINED PROPRIETARY/COMMERCIAL INFORMATION, WE
REDACTED (WHITED OUT) THAT INFORMATION FROM THE VERSION OF THE REPORT THAT IS BEING
PUBLICLY RELEASED. WHERE SUCH INFORMATION WAS REDACTED IS NOTED IN THE REPORT.




             Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


      CALEA provides that the Attorney General can reimburse
telecommunications carriers for modifications to equipment, facilities, or
services installed or deployed on or before January 1, 1995, to meet CALEA
capability requirements.1 Essentially, the capability requirements of CALEA
require carriers to be able to isolate, intercept, and deliver communication
content and call identifying information to law enforcement pursuant to
lawful government order. The carriers are responsible for such modifications
to equipment, facilities, and services installed or deployed after
January 1, 1995. 2 To date, funding for CALEA implementation has totaled
$499.5 million.

Audit Results

      CALEA requires biannual audit reporting on the equipment, facilities,
and services that have been modified to comply with CALEA requirements;
whether FBI payments to the carriers were reasonable and cost effective;
and projections of future costs for such modifications.3 Consistent with
these congressionally mandated audit objectives, we assessed CALEA’s
implementation to date. Our audit found the following:

   •   After more than nine years and nearly $450 million in payments or
       obligations, deployment of CALEA technical solutions for electronic
       surveillance remains significantly delayed. The FBI does not collect
       and maintain data on carrier equipment that is CALEA compliant.
       Nevertheless, FBI personnel estimate that CALEA compliant software
       has been activated on approximately 50 percent of pre-January 1,
       1995, and 90 percent of post-January 1, 1995, wireless equipment.
       Most troubling, according to FBI estimates, CALEA compliant software
       has been activated on only 10 to 20 percent of wireline equipment.
       FBI personnel advised that law enforcement agencies were unable to
       properly conduct electronic surveillance on equipment for which the
       CALEA-compliant software has not been activated. However, the FBI
       was unable to demonstrate the extent to which lawful electronic
       surveillance has been adversely impacted by the lack of CALEA

       1
         CALEA vests authority for its implementation with the Attorney General. The
Attorney General delegated this authority to the FBI pursuant to 28 CFR section 0.85(o).

       2
         The carriers may request reimbursement for these modifications provided that the
FCC has ruled that such modifications are not reasonably achievable.

       3
           The General Accounting Office performed the first biannual audit in 1996. The DOJ
Office of the Inspector General (OIG) performed the audits in 1998, 2000, and 2002.

                                           - ii -

              Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


       implementation. We concluded that it was critical that the FBI collect
       data on carrier compliance and the impact of non-compliance on state
       and local law enforcement to determine the extent to which lawful
       electronic surveillance is being compromised.

   •   The FBI has made approximately $450 million in payments and
       obligations to equipment manufacturers for Right-To-Use (RTU)
       licenses. A RTU software license allows a carrier to activate the
       software once the manufacturer has been reimbursed for its
       development costs. Except for a one-time payment of $2.2 million,
       the FBI has not yet made any payments from CALEA funds to
       telecommunications carriers for activation of CALEA-compliant
       software discussed below.4 The FBI believed that first negotiating RTU
       licenses with manufacturers would ultimately lessen the cost for
       telecommunications carriers. Whether or not this is true will be
       determined as the FBI negotiates agreements with carriers to activate
       the software obtained under the RTU agreements.

   •   Cost estimates from the FBI suggest that the current funding level of
       $500 million for CALEA is insufficient. In December 2003, the FBI
       estimated that about $204 million in additional funds might be
       required. Estimates on the cost of CALEA implementation have varied
       widely, however, and technological change continues to occur at a
       rapid pace. For these reasons, we are skeptical of the accuracy of the
       FBI’s estimates or whether CALEA’s implementation cost can be
       determined with any specificity.

      We found a variety of factors that have seriously complicated CALEA
implementation, including: (1) delays in establishing electronic surveillance
standards together with Federal Communications Commission (FCC)
extensions, (2) contested cost recovery regulations, (3) carrier cost
estimates that were viewed as exorbitant by the FBI, and (4) negotiating
RTU licenses with equipment manufacturers. We describe each of these
factors in turn.




       4
         The FBI entered into a $6.2 million agreement with Qwest to ensure that its
network in Salt Lake City was CALEA compliant for the 2002 Winter Olympics. Of this
amount, $4 million came from FBI Counterterrorism funds and $2.2 million came from
CALEA funding.

                                          - iii -

              Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


Factors Complicating CALEA Implementation

       Electronic Surveillance Standards

       Electronic surveillance standards provide the basis for the development
and deployment of technology to permit carriers to assist law enforcement in
conducting lawful electronic surveillance. Development of the initial
electronic surveillance standards and obtaining agreement by all parties on
their content has been a lengthy process. It was not until April 2002, nearly
8 years after CALEA was passed, that the FCC finally mandated electronic
surveillance technical standards for wireline local exchange service, cellular,
and broadband personal communications services. However, technical
standards for other services such as packet-mode are still in the
development stage.5

      In June 1996, approximately two years after the enactment of CALEA,
the Department of Justice (DOJ) issued the Electronic Surveillance Interface
Document (ESI). The ESI set forth law enforcement surveillance
capabilities, which were developed in consultation with law enforcement
agency and industry representatives. In December 1997, the industry
published Interim Standard J-STD-025 (known as the J-Standard) to meet
the electronic surveillance capability requirements of CALEA. The J-Standard
incorporated many of the standards set forth in the ESI but excluded several
electronic surveillance capabilities deemed necessary to law enforcement.
As a result DOJ filed a deficiency petition with the FCC in March 1998
because the J-Standard did not meet all the capabilities that law
enforcement was seeking.

       In September 1998, the FCC granted an extension to carriers of CALEA
deadline for complying with CALEA capability requirements for equipment
installed or deployed after January 1, 1995, from October 28, 1998, to
June 30, 2000. This extension was granted on the basis that there was no
technology currently available to permit carriers to deploy the minimum
industry developed J-Standard capability standards.




       5
          Packet-mode is the digitalization of telecommunication transmissions so that a
carrier can use its entire system to transmit a communication instead of dedicating a
specific portion of the system for the transmission duration as with a conventional
transmission. Packet-mode is more efficient and less costly because each digitized
communication packet can travel the most direct system path.

                                           - iv -

              Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


       In August 1999, the FCC ruled that carriers must comply with
additional requirements (punchlist) sought by the government and not
included in the J-Standard. The FCC gave carriers until September 2001 to
comply. The FCC also mandated that carriers provide the capability to
intercept packet-mode communications by September 30, 2001. The
industry appealed the FCC decision to United States Court of Appeals,
District of Columbia Circuit. On August 21, 2000, the Court of Appeals ruled
that each capability standard is required by CALEA, but remanded four of the
challenged capabilities to the FCC for further proceedings (99-1442). In an
April 11, 2002, Order on Remand, the FCC found that all of the punchlist
requirements are required under CALEA and must be provided by wireline,
cellular, and broadband telecommunications carriers by June 30, 2002. The
FCC has continued to provide extensions of time for carriers with respect to
post January 1, 1995 equipment. Also the FBI has not yet agreed to any
carrier cost proposal to deploy the CALEA capability requirements on pre-
January 1, 1995 equipment because the FBI considered the carriers cost
estimates to be exorbitant as we describe below.

     Cost Recovery Regulations

       In March 1997, the FBI published the final cost recovery regulations
(28 CFR Part 100), which set forth the procedures for carriers to follow in
order to receive reimbursement for costs incurred in deploying their CALEA
solution on their pre-1995 equipment. A CALEA solution is the standards
that carriers adopt to be able to comply with law enforcement requests to
conduct lawful electronic surveillance. Carriers will incur costs to deploy
their CALEA solutions through activation of the software provided by
manufacturers under the RTU agreements. The Cost Recovery Regulations
became effective on April 21, 1997. Industry representatives filed a lawsuit
in April 1998 in U.S. District Court for the District of Columbia (Court)
challenging the definition of “installed or deployed” as the term applied to
the January 1, 1995, cutoff for reimbursements to carriers. DOJ filed a
motion to dismiss, and in August 2000 the Court ruled in favor of DOJ
(98-2010).

     Carrier Cost Proposals

      According to the FBI, a primary reason for the delay in implementing
CALEA have been exorbitant cost estimates by carriers. The FBI provided us
with examples of several carrier proposals for deployment of their electronic
surveillance capabilities. These included proposals from General Telephone
and Electric (GTE), SBC Communications (SBC), and Verizon. As detailed

                                    -v-

            Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted


below, the cost proposals for these three carriers alone exceeded the $500
million authorized by Congress for CALEA implementation.

         •   GTE submitted its proposal in February 1999 prior to the RTU
             agreements and prior to its becoming part of Verizon. GTE
             estimated that the cost of deploying their CALEA solution
             throughout its entire network could exceed [Proprietary
             Information Redacted].

         •   SBC and Verizon cost estimates were submitted after the RTU
             agreements had been consummated and reflected the cost
             savings resulting from these agreements. The SBC cost proposal
             submitted in September 2000 showed an estimate of
             [Proprietary Information Redacted] for deployment of their
             CALEA solution.

         •   The FBI provided us with two examples of cost proposals
             submitted by Verizon. The first, submitted in June 2001,
             showed a cost estimate of [Proprietary Information Redacted] to
             deploy their CALEA solution throughout its network. The second
             proposal submitted by Verizon in July 2002 showed the total cost
             estimate to be [Proprietary Information Redacted].

       The FBI recently received a proposal from a major telecommunications
carrier to deploy its electronic surveillance solution on specified carrier
priority equipment. FBI personnel were optimistic that an agreement could
be negotiated with this carrier, and that this will lead to the deployment of a
CALEA solution throughout a significant portion of this carrier’s network.
The FBI is hopeful that if agreement is achieved with this carrier, the
possibility of negotiating reasonably priced agreements with other carriers
will be increased.

      Right to Use Licenses

      A RTU software license allows a carrier to activate the software once
the manufacturer is reimbursed for its development costs. The FBI entered
into several RTU licensing agreements with manufacturers and carriers and
has paid or obligated to manufacturers, primarily Nortel and Lucent,
approximately $450 million to permit carriers to obtain RTU software




                                     - vi -

             Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


licenses at no charge.6

       These agreements were negotiated between February 1998 and
April 2003. According to the FBI, it believed that negotiating RTU licenses
with manufacturers for the use of their software would be a major advantage
for the carriers and that nationwide software buyouts (FBI purchase of RTU
licenses for all carriers that use a given manufacturers equipment) would be
more cost effective than reimbursing individual carriers for the cost of this
software. Under the RTU agreements, the manufacturers developed and
made available the software with the necessary features for electronic
surveillance needed in order for carriers to deploy their CALEA solutions.

       In negotiating RTU agreements, the FBI General Counsel opined in
February 1999 that “the proposed [RTU licensing] arrangement is a
reasonable attempt to minimize the costs to the federal government because
it reduces the potential for manufacturers to collect substantial profit from
carriers who will in turn seek reimbursement from the federal government.”7

Current and Future Issues

      In addition to the past delays described above, we found several
current and future issues that will likely have a direct impact on whether
CALEA can be fully implemented. These are: (1) the sufficiency of current
funding, (2) emerging technologies for which electronic surveillance
standards are inadequate or not yet developed, and (3) legislative changes
that are necessary to fully implement CALEA.




       6
        The manufacturers and the approximate amounts paid or obligated under RTU
agreements were: Lucent ($189 million), Nortel ($113 million), Siemens ($60 million)
Motorola ($55 million), and AG Communications ($30 million).

       7
          In June 1999, the FBI prepared a Determination and Findings Regarding the
Implementation of CALEA prior to entering into any RTU software license agreements. The
FBI prepared this document because it was unable to determine the reasonableness of the
cost of the RTU software licenses through traditional means, such as cost or price analysis.
This was because the manufacturers were unwilling to furnish adequate cost or price
information to the FBI in spite of repeated attempts by the FBI to obtain such information.
As a result, the information given to us by the FBI was insufficient for use to determine the
reasonableness of these costs. Accordingly, we were not able to offer an opinion on the
reasonableness of the cost paid for the RTU software licenses.




                                           - vii -

               Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


       Future Funding Needs

      As of the end of our audit fieldwork approximately $50 million in
unobligated funds remained for deployment of carrier electronic surveillance
solutions and other FBI funding priorities such as wireless geo-location and
trunk surveillance, which are described below.

                                   Status of Funding
             Appropriations                                  $456,976,876
             Funds from other sources8                         42,580,270
             Total Received [a]                              $499,557,146
              Less:
             Payments [b]                                    $441,367,124
             Obligations [c]                                    8,664,775

             Unobligated Funds [a] less [b + c]              $ 49,525,247


      According to the FBI, cost estimates for obtaining CALEA compliance
have varied widely. Prior to enactment of CALEA, industry estimated that
CALEA compliance would cost from $3 to $5 billion. The FBI estimated the
cost to be between $500 million and $1 billion. From 1998 to 1999, the
industry estimates were reduced to $1.3 billion. According to the FBI,
manufacturers initially requested $734 million for RTU software licenses in
the early stages of negotiation with the FBI. Negotiations between the FBI
and industry representatives reduced the final price to $450 million.

      In December 2003, the FBI estimated that an additional $204 million
would be necessary to complete deployment of CALEA solutions on carrier
equipment in high priority areas and to conduct other current FBI priorities
such as wireless geo-location and trunk surveillance which are described
below. For a variety of reasons, we are skeptical as to whether CALEA’s
implementation cost can be determined with any degree of specificity.
These reasons include wide variances in past budget estimates, the
continued slow pace of CALEA implementation, and rapid technological
changes in the telecommunications field. We agree, however, that it is
unlikely that CALEA can be implemented with the $49.5 million that remains
unobligated from current funding.

       8
         The sources of these other funds were the DOJ working capital fund - $40 million;
U.S. Customs Service - $1,580,270; and U.S. Postal Inspection Service - $1 million.

                                          - viii -

              Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted


       Emerging Technologies

      The FBI is concerned that the emergence of new technologies without
the development of concomitant CALEA standards will lessen law
enforcement’s ability to conduct authorized electronic surveillance. The new
technologies include:

   •   Packet-mode (digitalized transmissions) communications that can be
       used via conventional telecommunications systems or the internet.

   •   Internet-based telecommunications services, which use packet-mode
       communication.

   •   Nontraditional wireless services, such as personal digital assistants.

   •   Internet hotspots, such as cyber cafes, that provide anonymity with
       multiple access points.

   •   Walkie-talkie networks, such as Verizon’s push-to-talk.

   •   Third party calls using calling cards and toll free numbers.

       In addition, the slow pace of CALEA’s implementation increases the
likelihood that additional technologies will continue to emerge that could
impact law enforcement’s ability to conduct authorized electronic
surveillance.

       Legislative Issues

      DOJ is currently considering whether to propose to Congress changes
to CALEA. Currently, CALEA does not apply to “information services,” which
include Internet Service Providers. However, vendors are now offering
phone service over the internet. Some modification of the information
services exemption may be necessary in order to ensure that Voice-over-
Internet-Protocol services are subject to CALEA requests.

      Other CALEA amendments DOJ is considering include: modifying the
Attorney General’s role with regard to electronic surveillance standard
setting, limiting the FCC’s authority to grant extensions to carriers for
implementing CALEA, granting the FCC enforcement power to compel
carriers to comply with CALEA, and amending the mechanism by which
carriers may be reimbursed for deploying electronic surveillance standards.

                                      - ix -

             Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted



      Although we discuss these legislative issues in greater detail in this
report, it is not our intent to endorse any specific legislative change. The
FBI, in consultation with DOJ and the administration, must fully evaluate
each issue before recommending any legislative changes.

OIG Recommendations

      In addition to assessing the status of CALEA implementation and
assessing its cost effectiveness, our report contains three recommendations
to the FBI to improve CALEA implementation:

   •   Collect and maintain data on the carrier equipment that is and is not
       CALEA compliant.

   •   Periodically survey state and local law enforcement to determine the
       extent to which delay in the implementation of CALEA is adversely
       impacting law enforcement’s ability to conduct lawful electronic
       surveillance.

   •   Submit to Congress CALEA legislative changes necessary to ensure
       that lawful electronic surveillance is achieved expeditiously in the face
       of rapid technological change.




                                      -x-

             Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted


                          TABLE OF CONTENTS

                                                                             Page
INTRODUCTION................................................................. 1
  BACKGROUND .................................................................... 1
  MAJOR PROVISIONS OF CALEA................................................. 2
FINDINGS AND RECOMMENDATIONS..................................... 6
  DEPLOYMENT OF CALEA S OLUTIONS HAS BEEN SIGNIFICANTLY DELAYED 6
   Causes for Delay in Deployment....................................... 7
   FBI Efforts to Implement CALEA..................................... 11
   Current Issues Affecting the Implementation of CALEA....... 17
   Conclusion ................................................................. 23
   Recommendations....................................................... 24
APPENDIX I - CHRONOLOGY OF CALEA IMPLEMENTATION
ACTIVITIES SINCE THE FY 1996 GAO REPORT ...................... 26
APPENDIX II - FCC ACTIONS ON PETITIONS......................... 33
APPENDIX III - OBJECTIVES AND METHODOLOGY ................. 34
APPENDIX IV – FBI RESPONSE ........................................... 35
APPENDIX V - OIG, AUDIT DIVISION ANALYSIS AND SUMMARY
OF ACTIONS NECESSARY TO CLOSE THE REPORT.................. 37




             Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


                                   INTRODUCTION

Background

       Congress enacted the Communications Assistance for Law
Enforcement Act (CALEA) in October 1994 and authorized $500 million to
reimburse telecommunications carriers (carriers) for certain eligible costs
associated with implementing CALEA capability and capacity9 requirements
to facilitate law enforcement’s electronic surveillance.10 CALEA states

       a . . . carrier shall ensure that its equipment, facilities and
       services that provide . . . a customer . . . the ability to
       originate, terminate, or direct communications are capable
       of expeditiously isolating and enabling the government,
       pursuant to court order . . . to intercept electronic
       communications . . .

      In passing CALEA, Congress was concerned that advances in
telecommunications technology, such as cellular telephones and features
such as call forwarding and multiparty calls, could limit the effectiveness of
lawful electronic surveillance. CALEA required that carriers deploy electronic
surveillance standards to ensure that technological advances in the
telecommunications industry (industry) would not compromise the ability of
law enforcement agencies to engage in lawful electronic surveillance.

      Congress assigned overall responsibility for implementing CALEA to the
Attorney General, and the Attorney General delegated this responsibility to
the FBI. To carry out these responsibilities, the FBI established a CALEA
Implementation Unit (CIU) in its Investigative Technology Division and the
Telecommunications Contract and Audit Unit (TCAU) in its Finance Division.

      The CIU was responsible for development of CALEA-mandated
requirements in concert with other federal, state, and local law enforcement
agency and industry representatives. Once the requirements were
developed, the CIU worked with these representatives to develop and deploy
necessary methods and products to implement these requirements.

       9
         Capability refers to the ability to meet the electronic surveillance requirements
provided in Section 103 of CALEA. Capacity refers to the ability to meet the simultaneous
electronic surveillance intercepts provided in Section 104 of CALEA.

       10
           Electronic surveillance is the interception of communications and collection of call
identifying information via carrier systems pursuant to lawful government authorization in
the investigation of criminal activity.



               Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted



      The TCAU was primarily responsible for awarding and administering all
agreements involving the implementation of CALEA. The TCAU consisted of
a contract group and a contract audit group. The contract group drafted and
promulgated the cost recovery regulations, executed RTU agreements, and
obligated and disbursed funds pursuant to the RTU agreements. The
contract audit group assisted in the development of independent
government cost estimates for the RTU agreements and provided audit
support for the implementation of CALEA.

Major Provisions of CALEA

      CALEA does not change or expand the government’s electronic
surveillance authority. Rather, CALEA seeks to ensure that carriers will have
the necessary technical capability and sufficient capacity to assist law
enforcement in conducting electronic surveillance pursuant to Title III of the
Omnibus Crime Control and Safe Streets Act of 1968 and the Electronic
Communications Privacy Act of 1986, which extended authorized lawful
electronic surveillance to communications transmitted via wireless
technology. The following are salient provisions in CALEA:

     •   Pursuant to CALEA, the Attorney General may reimburse the
         carriers for modifications to equipment, facilities, or services
         installed or deployed on or before January 1, 1995, to meet the
         capability requirements. If the Attorney General does not make
         such reimbursement, a given carrier is deemed in compliance with
         CALEA for such equipment unless the equipment has been
         replaced, significantly upgraded, or otherwise undergoes major
         modification. The carriers are responsible for such CALEA
         compliant modifications to equipment, facilities, and services
         installed or deployed after January 1, 1995.

     •   CALEA gives certain responsibilities and authority to the Federal
         Communications Commission (FCC) under sections 102, 105, 107,
         and 109. Under section 102, the FCC has the authority to identify
         telecommunications services, not specifically identified in the law,
         that are subject to the requirements of CALEA. Section 105 of
         CALEA states that the FCC shall prescribe regulations to ensure that
         carriers conduct electronic surveillance only pursuant to a court
         order or other lawful authorization with the affirmative intervention
         of a carrier employee.


                                    -2-

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


     •   CALEA provides for three kinds of FCC relief from the capability
         requirements of CALEA under sections 107 and 109: Deficiency
         petitions under section 107(b), compliance extensions under
         section 107(c) and reasonably achievable petitions under section
         109(b). The FCC may grant relief under section 107(b) if industry
         electronic surveillance standards are deemed deficient or
         nonexistent. Also, the FCC may grant compliance extensions to
         carriers under section 107(c) if carrier compliance is deemed not to
         be reasonably achievable through the application of currently
         available technology. Finally, the FCC may grant relief under
         section 109(b) if carrier compliance with electronic surveillance
         standards is deemed too costly or technically complex or both with
         regard to equipment installed or deployed after January 1, 1995.
         Carriers may request reimbursement for these modifications
         provided that the FCC has ruled that such modifications are not
         otherwise reasonably achievable under section 109(b) of CALEA.
         According to FBI personnel, the FCC has not granted any relief to
         carriers under section 109(b) of CALEA.

     •   CALEA provided tha t telecommunications equipment manufacturers
         (manufacturers) cooperate with carriers in order to ensure that
         carriers were able to comply with CALEA on a timely basis. CALEA
         provided that manufacturers shall make available to carriers
         features and modifications, timely and at a reasonable charge, as
         necessary to allow the carriers to comply with CALEA requirements.

     •   When enacting CALEA, Congress recognized that standards for
         interception of electronic surveillance needed to be developed.
         Therefore, to develop such standards, CALEA provides for
         consultation among: DOJ; federal, state and local law enforcement
         agencies; industry standard-setting organizations; and state utility
         commissions.

Past DOJ OIG Reports

        The Department of Justice (DOJ) Office of the Inspector General (OIG)
is required by CALEA to report to Congress biannually on the equipment,
facilities and services that have been modified to comply with CALEA
capability and capacity requirements; whether FBI payments to carriers for
such modifications were reasonable and cost effective; and projections of
future costs for such modifications to meet CALEA capability requirements.
We have issued three previous reports on CALEA:

                                    -3-

            Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted



      •    In March 1998, we reported that the FBI and the industry disagreed
           over what capabilities had to be provided by the industry to be
           CALEA compliant and eligible for reimbursement (see OIG report
           number 98-13). At that time, the carriers had not modified any
           equipment pursuant to CALEA, and the FBI had not made any
           payments to the carriers.

      •    In March 2000, we reported that the FBI had begun negotiations
           with carrier and manufacturer representatives to determine the
           most appropriate way to arrange for carriers to meet the capability
           requirements (see report number 00-10). The FBI determined that
           right-to-use (RTU) licenses for the use of the manufacturers’
           software would be a major cost for the carriers.11 We also reported
           that the FBI had entered into RTU license agreements with a
           manufacturer (Nortel) and certain carriers to permit all carriers,
           who were using specified Nortel equipment, the use of the software
           developed by Nortel. At the time, CALEA only permitted
           reimbursement of carrier costs. For this reason carriers were
           included as parties to these agreements. Under these agreements
           payments were made to Nortel on behalf of all carriers who used
           the Nortel equipment specified in the agreement. Pursuant to
           these agreements, the FBI negotiated a price of $101.8 million for
           carrier purchase of Nortel’s RTU software licenses.

           According to the FBI, the manufacturers would not provide the FBI
           with adequate cost or pricing data. As a result, the FBI was unable
           to determine the reasonableness of the cost of the RTU software
           licenses through traditional means, such as cost and price analysis.
           Therefore, the FBI prepared a Determination and Findings
           Regarding the Implementation of the Communications Assistance
           for Law Enforcement Act (D&F) dated June 2, 1999, prior to
           entering into these agreements. The D&F set forth the FBI’s
           rationale for entering into these agreements without adequate cost
           or pricing data. Nevertheless, the information given to us by the
           FBI at that time did not provide us with an adequate basis to
           determine the reasonableness of these costs. Accordingly, in the


      11
          A RTU software license allows a carrier to activate the software once the
manufacturer has been reimbursed for its development costs. However, having an RTU
license does not guarantee that a carrier will activate the software.

                                         -4-

              Proprietary/Commercial Information Redacted
       Proprietary/Commercial Information Redacted


    March 2000 report, we were unable to offer an opinion on the
    reasonableness of the cost incurred for the RTU software licenses.

    We also reported in the March 2000 report that the FBI’s Office of
    General Counsel had issued a legal opinion stating that the RTU
    license agreements were legal within the framework of CALEA. The
    legal opinion stated that such agreements were:

            [A] reasonable attempt to minimize the costs
            to the federal government because it reduces
            the potential for manufacturers to collect
            substantial profit from carriers who will in turn
            seek reimbursement from the federal
            government.

•   In March 2002, we reported that the FBI had paid or obligated
    about $400 million for carrier purchases of the RTU software
    licenses to: Lucent Technologies - $170 million, Nortel - $102
    million, Motorola - $55 million, Siemens AG - $40 million, and AG
    Communications - $30 million (see OIG report number 02-14). The
    FBI concluded that RTU license agreements were the most cost
    effective vehicles to reimburse the carriers for the use of the
    manufacturers’ software. The FBI prepared D&Fs to support this
    approach because the manufacturers would not provide the FBI
    with adequate cost or pricing data. Thus, the information given to
    us by the FBI did not provide a basis to determine the
    reasonableness of the cost incurred for the RTU software licenses.
    Accordingly, we again were unable to offer an opinion on the
    reasonableness of these costs.

    We also reported that the FBI had not entered into any agreements
    to reimburse carriers for activation of the software developed under
    the RTU agreements. At that time, the FBI estimated that for each
    additional $100 million in funding, capability solutions could be
    deployed in at least 25 percent of locations prioritized by the FBI.
    The FBI had identified carrier equipment locations with high
    electronic surveillance activity and determined these to be priority
    locations for the deployment on the electronic surveillance
    standards.




                               -5-

       Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted




                 FINDINGS AND RECOMMENDATIONS

      Deployment of CALEA Solutions Has Been Significantly
      Delayed

       Implementation of CALEA solutions remains delayed after more
       than nine years since CALEA’s enactment.12 Despite payments
       and obligations of approximately $450 million for manufacturers
       to assist carriers in implementing the requirements of CALEA,
       the FBI has not entered into any agreements with carriers to
       deploy electronic surveillance solutions at priority locations as
       defined in footnote 17. The main reasons for the delay in
       implementation are that carriers: (1) have stalled the
       implementation of CALEA by challenging or failing to develop
       electronic surveillance standards that address all law
       enforcement needs; (2) challenged the FBI’s carrier cost
       recovery regulations; and (3) did not provide the FBI with
       reasonable deployment cost estimates. In addition, the first
       negotiation with a manufacturer to develop a software solution
       that will provide carriers with RTU licenses to use
       manufacturer-developed electronic surveillance features, began
       in 1998, and the FBI reports that only now are negotiations with
       manufacturers being completed.

       In addition, the FCC has granted the carriers extensions for
       compliance with CALEA that have delayed implementation by
       nearly four years which has adversely impacted the FBI’s ability
       to implement CALEA for the benefit of law enforcement. As a
       result, the FBI estimated that electronic surveillance standards
       have been deployed on only 10 to 20 percent of carrier wireline
       equipment, and 50 percent of pre-1995 and 90 percent of
       post-1995 wireless equipment. However, the FBI was unable to
       provide us with data showing the extent to which state and local
       law enforcement has been unable to conduct electronic
       surveillance as a result of these delays.



       12
         A CALEA solution is the standards that carriers adopt to be able to comply with law
enforcement requests to conduct lawful electronic surveillance.

                                           -6-

              Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


      We discuss the causes of these delays in detail below. Also we discuss
below the two major efforts undertaken by the FBI to implement CALEA:
the RTU agreements, and the flexible deployment program. Finally, we
discuss issues that CALEA implementation is still facing: emerging
technologies, legal issues, and future funding needs.

Causes for Delay in Deployment

     Electronic Surveillance Standard Setting and FCC Actions

       In June 1996, DOJ issued the Electronic Surveillance Interface (ESI)
Document. The ESI sets forth the law enforcement surveillance capabilities,
which were developed in consultation with law enforcement and industry
representatives. In December 1997, the industry published Interim
Standard J-STD-025 (J-Standard) to meet the electronic surveillance
capability requirements of CALEA. The J-Standard incorporated many of the
standards set forth in the ESI but excluded several electronic surveillance
capabilities deemed necessary to law enforcement. As a result, DOJ filed a
deficiency petition with the FCC in March 1998 because the J-Standard did
not meet an additional nine capabilities (punch-list) that law enforcement
was seeking.13 The punchlist included the following capability requirements
for carriers:

  1. Provide the content of subject-initiated conference calls supported by
     the subject's service (including the call content of parties on hold).

  2. Identify the active parties of a multiparty call.

  3. Provide access to all dialing and signaling information available from
     the subject including a subject's use of features (e.g., the use of
     flash-hook and other feature keys).

  4. Notify the law enforcement agency when a subject's service sends a
     tone or other network message to the subject or associate (e.g.,
     notification that a line is ringing or busy).

  5. Provide timing information to correlate call-identifying information with
     the call content of a communications interception.



     13
          See Appendix II for a listing of FCC actions relating to petitions.

                                             -7-

               Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


   6. Provide digits dialed by a subject after the initial call "cut-through" is
      completed to another carrier.

   7. Send a message to a law enforcement agency that an interception is
      still functioning on a subject.

   8. Alert a law enforcement agency via electronic continuity check tone if
      the facility used for delivery of call content has failed or lost continuity.

   9. Notify a law enforcement agency if the subject modifies his subscribed
      features.

       In September 1998, the FCC granted an extension to carriers of CALEA
deadline for complying with CALEA capability requirements. For equipment
installed or deployed after January 1, 1995, the FCC extended the deadline
from October 28, 1998, to June 30, 2000. The FCC granted this extension
on the basis that there was no technology currently available to permit
carriers to deploy the minimum industry-developed J-Standard capability
standards. In its order, the FCC noted that, pursuant to CALEA, carriers are
deemed to be CALEA-compliant with respect to equipment installed or
deployed on or before January 1, 1995, unless the Attorney General agrees
to reimburse carriers for all reasonable costs necessary to bring such
equipment into compliance.

       In August 1999, the FCC ruled that carriers must comply with six of
the additional punch-list requirements sought by the government and not
included in J-Standard (items 1 through 6 on page 7). The FCC gave
carriers until September 2001 to comply with these additional capability
standards. The FCC also mandated that carriers provide the capability to
intercept packet-mode communications by September 30, 2001.14 The
industry appealed the FCC decision to the United States Court of Appeals,
District of Columbia Circuit. On August 21, 2000, the Court of Appeals ruled
that each capability standard is required by CALEA, but remanded four of the
challenged capabilities (items 2, 3, 4 and 6) to the FCC for further
proceedings (99-1442). In an April 11, 2002, Order on Remand, the FCC
found that all of the punchlist requirements are required under CALEA and

       14
           Packet-mode is the digitalization of telecommunication transmissions so that a
carrier can use its entire system to transmit a communication instead of dedicating a
specific portion of the system for the transmission duration as with a conventional
transmission. Packet-mode is more efficient and less costly because each digitized
communication packet can travel the most direct system path.

                                           -8-

               Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


must be provided by wireline, cellular, and broadband telecommunications
carriers by June 30, 2002.

      Cost Recovery Regulations

      In March 1997, the FBI published the final cost recovery regulations
(28 CFR Part 100), which set forth the procedures for carriers to follow to
receive reimbursement for costs incurred in deploying their CALEA solutions
on their pre-1995 equipment. A CALEA solution is the methodologies that
carriers adopt to be able to comply with law enforcement requests to
conduct lawful electronic surveillance. Carriers will incur costs to deploy
their CALEA solutions through activation of the software provided by
manufacturers under the RTU agreements. The Cost Recovery Regulations
became effective on April 21, 1997. Industry representatives filed a lawsuit
in April 1998 in U.S. District Court of the District of Columbia (Court)
challenging the definition of “installed or deployed” as the term applied to
the January 1, 1995, cutoff for reimbursements to carriers. DOJ filed a
motion to dismiss, and in August 2000 the Court ruled in favor of DOJ
(98-2010).

      On October 5, 2001, the FBI published a Supplemental Notice of
Proposed Rulemaking, 66 Fed. Reg. 50931 (2001). The notice addressed
the implementation of CALEA Section 109 regarding the definitions of
"replaced" and "significantly upgraded or otherwise undergoes major
modification.” The FBI published on July 2, 2003, an information collection
request 68 Fed. Reg. 39597 (2003) to the Office of Management and Budget
for review and approval of the Cost Recovery Regulations in accordance with
the Paperwork Reduction Act of 1995. The proposed information collection
was published to obtain comments from the public and affected agencies.
On October 16, 2003, the FBI published 68 Fed. Reg. 59638 (2003), a
30-day notice of information collection reply comment period regarding the
Cost Recovery Regulations.

      Carrier Cost Proposals

       The FBI implemented an approach to reimbursement that allowed
carriers to receive at no charge CALEA electronic surveillance software. The
FBI determined that RTU licenses for the use of the manufacturers’ software
would be a major cost for the carriers and that nationwide software buyouts
would be more cost effective than reimbursing individual carriers for the cost
of this software (FBI purchase of RTU licenses for all carriers that use a
given manufacturer’s equipment). Under these RTU agreements, the

                                    -9-

            Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


manufacturers developed and made available to carriers the software with
the necessary features for electronic surveillance that carriers require in
order to deploy their CALEA solutions. The FBI reasoned that if carriers did
not have to pay manufacturers individually for the software licenses, volume
discounts could be achieved, thereby reducing deployment costs.

      In the past, carriers have submitted cost estimates to the FBI for
deployment of CALEA solutions. Deployment involves activation by the
carriers of the software solutions previously developed by manufacturers.
The FBI has not yet entered into any agreements with carriers because FBI
personnel believed that carrier cost estimates for activation were
unreasonable. The only exception to this was an agreement with Qwest,
dated February 28, 2002, to implement its electronic surveillance solution in
the Salt Lake City area before the Winter Olympics held in February 2002. 15

       FBI personnel provided us with several carrier proposals for
deployment of their electronic surveillance solutions as examples of what FBI
personnel considered to be exorbitant cost estimates to deploy CALEA
solutions. These included submissions by GTE, SBC, and Verizon. The three
examples provided by the FBI contained cost estimates that together
exceeded the total funds authorized by Congress for CALEA implementation.
GTE submitted its proposal in February 1999 before the RTU agreements and
before merging with Verizon. GTE estimated that the cost of deploying a
CALEA solution throughout its ent ire network could exceed [Proprietary
Information Redacted]. SBC and Verizon submitted cost estimates after the
RTU agreements had been consummated and reflected the cost savings
resulting from these agreements. The SBC cost proposal, submitted in
September 2000, showed an estimate of [Proprietary Information Redacted]
for deployment of a CALEA solution. The FBI provided us with two cost
proposals submitted by Verizon. The first, submitted in June 2001, showed
a cost estimate of [Proprietary Information Redacted] to deploy a CALEA
solution throughout its network. The revised proposal submitted by Verizon
in July 2002 showed the total cost estimate to be [Proprietary Information
Redacted].




      15
           The agreement between the FBI and Qwest was in response to the
September 11, 2001 (9/11) terrorist attacks. Qwest was reimbursed $6.2 million under the
agreement. Of this amount, $4 million was paid from the FBI’s counterterrorism fund that
was established in response to the 9/11 terrorist attacks. The remaining funds - $2.2
million - were from FBI funds.

                                         - 10 -

              Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


       The FBI recently received a proposal from a major telecommunications
carrier to deploy its electronic surveillance solution on specified carrier
priority equipment. FBI personnel were optimistic that an agreement could
be negotiated with this carrier, and that this will lead to the deployment of a
CALEA solution throughout a significant portion of this carrier’s network.
The FBI is hopeful that if agreement is achieved with this carrier, the
possibility of negotiating reasonably priced agreements with other carriers
will be increased.

FBI Efforts to Implement CALEA

      Results of Right-To-Use Software License Agreements

      As previously reported in an OIG audit of CALEA, the FBI implemented
an approach to reimbursement that allowed carriers to receive CALEA
electronic surveillance software at no charge through RTU agreements (see
OIG audit report numbers 00-10 and 02-14). Under RTU agreements, the
manufacturers developed and made available the software with the
necessary features for electronic surveillance in order for carriers to deploy
their CALEA solutions. As of November 2003, the FBI had paid or obligated
approximately $450 million, primarily for the purchase of the RTU software
licenses from various manufacturers. The following major manufacturers
have participated in RTUs: Nortel, Lucent, Motorola, Siemens, and AG
Communications. In addition, the first negotiation with a manufacturer to
develop a software solution, which provides the carriers with RTU licenses to
use manufacturer developed electronic surveillance features, began in 1998
and the FBI reports that only now are negotiations with manufacturers
essentially complete.

       The FBI initiated the first agreement with Nortel in 1998. In our
previous reports, we stated that the FBI was unable to determine the
reasonableness of these agreements because the manufacturers refused to
provide adequate cost and pricing data. Nevertheless, the FBI determined
that the costs were reasonable through a Determination and Finding (D&F).
We were unable to offer an opinion on the reasonableness of these costs
without the supporting data. In defense of this approach, the FBI’s general
counsel opined that: “the . . . [RTU licensing] arrangement is a reasonable
attempt to minimize the costs to the federal government because it reduces
the potential for manufacturers to collect substantial profit from carriers who
will in turn seek reimbursement from the federal government.”



                                    - 11 -

            Proprietary/Commercial Information Redacted
                 Proprietary/Commercial Information Redacted


      In this audit, to determine the result of the RTU agreements, we
requested FBI personnel to provide us with data showing the extent to which
CALEA compliant software was resident on carrier equipment. The FBI
obtained the requested information from two sources. According to the data
provided to us by the FBI, as reported in the industry’s “Local Exchange
Routing Guide” and by carriers under the FBI’s Flexible Deployment Initiative
described below, CALEA compliant software is now resident on carrier
equipment switches as set forth in the two tables below, and that these
results were because of the RTU agreements that the FBI had negotiated.16

            RTU Software Resident on Carrier Wireline Equipment
                                                  Wireline Equipment Switches
                                              Pre-1995                    Post-1995
                                               Non-                       Non-
                               Priority 1 7    Priority 18
                                                           Total Priority Priority  Total
Total number of
Switches                          5,232          6,510    11,742     1,270        1,665       2,935
Number with Resident
Software                          2,810          1,809     4,619       788          720       1,508
Percentage with
Resident Software                   54%           28%       39%       62%          43%         51%
Source: FBI

            RTU Software Resident on Carrier Wireless Equipment
                                             Wireless Equipment Switches
                                          Pre-1995                   Post-1995
                                          Non-                       Non-
                                 Priority Priority   Total  Priority Priority  Total
Total number of
Switches                             317             0       317     1,799                0   1,799
Number with Resident
Software                             270             0       270     1,530                0   1,530
Percentage with Resident
Software                            85%                     85%       85%                      85%
Source: FBI




       16
         A switch is a computer that directs electronic communication on a carrier system
and controls the services and features available to customers.

       17
            Priority equipment is at locations with high historical intercept activity.

       18
            Non-priority equipment is at locations with low historical intercept activity.
                                                 - 12 -

                 Proprietary/Commercial Information Redacted
                 Proprietary/Commercial Information Redacted


      However, CALEA compliant software features must be activated by the
carrier to effect compliance with CALEA requirements. The FBI did not have
specific data from the carriers to determine the number of carrier equipment
switches on which CALEA features have been activated, but the FBI has
requested this information from the carriers. FBI personnel advised us that
Verizon has recently agreed to begin providing such information to the FBI.
FBI officials provided us with their best estimate of activated carrier switches
based on ongoing interaction with industry representatives. They estimated
that only 10 to 20 percent of the wireline resident software had been
activated and approximately 50 and 90 percent of the pre- and post-1995
wireless resident software, respectively, had been activated. We were told
by the FBI that law enforcement agencies may not be able to conduct
electronic surveillance on equipment that lacks activated software. We
requested that the FBI demonstrate the extent to which law enforcement
agencies have been unable to conduct adequate electronic surveillance as a
result. However, the FBI was unable to provide us with such information. In
our judgment, collection and maintenance of this data is critical for the FBI
to determine the degree to which CALEA has been implemented and the
extent to which lawful electronic surveillance has been adversely impacted
due to delay in carrier deployment.

       In order to determine if lawful electronic surveillance had been
adversely affected due to the lack of activation of CALEA compliant software,
we reviewed reported nationwide domestic intercept activity from passage of
CALEA to the present. In this review, we examined intercept activity trends
at the federal, state, and local levels since CALEA was enacted. The
following table shows the extent and cost of reported intercept activity for
federal, state, and local law enforcement agencies. This data was taken
from the “Report of the Director of the Administrative Office of the United
States Courts (AOUSC) on Applications for Orders Authorizing or Approving
the Interception of Wire, Oral, or Electronic Communications” (Wiretap
Report) dated April 2003.19 The Wiretap Report did not include
counterterrorism investigation intercepts regulated by the Foreign
Intelligence Surveillance Act of 1978. In addition, the Wiretap Report only
showed so-called “full content” intercept activity, which does not include




        19
             This report is required under the Omnibus Crime Control and Safe Streets Act of
1968.

                                            - 13 -

                 Proprietary/Commercial Information Redacted
                  Proprietary/Commercial Information Redacted


   “pen register” or “trap and trace” intercepts that only collect call-identifying
   data such as dialed phone numbers.20

                               Post-CALEA Intercept Activity
Description  1995    1996    1997    1998    1999    2000    2001    2002
Intercepts
Authorized   1,058   1,150   1,186   1,331   1,350   1,190   1,491   1,359
Intercepts
Installed    1,024   1,035   1,094   1,245   1,277   1,139   1,405   1,273
Average
Cost        $56,454 $61,436 $61,176 $57,669 $57,511 $54,829 $48,198 $54,586
   Source: AOUSC Wiretap Report


          As shown above, there has been a minimal but steady growth in the
   number of intercepts authorized and installed since 1995, with some drop off
   in 2000 and 2002. The Wiretap Report stated that more than 75 percent of
   2002 electronic intercept locations were portable devices with no fixed
   location (e.g., cellular phones). As noted above, FBI officials believe that 50
   to 90 percent of wireless equipment was CALEA compliant. Unfortunately,
   according to FBI personnel, law enforcement agencies are not required to
   report on electronic intercepts that are not conducted because costs are
   prohibitive or because the carrier equipment is not CALEA compliant.
   Therefore, we are unable to determine the full impact on law enforcement of
   the delay in implementing CALEA.

         The FBI also entered into several additional RTU license agreements
   subsequent to the issuance of our March 2002 report. These agreements
   were made to reimburse the carriers for the purchase of RTU Enhanced
   Dial-Out software licenses from Siemens, Lucent, and Nortel
   (manufacturers) for $19.8 million, $19.6 million, and $10.7 million,
   respectively. The FBI determined that RTU license agreements were the
   most cost effective vehicles to reimburse the carriers for the use of the
   manufacturers’ software. The FBI prepared D&Fs to support this approach
   because it was unable to obtain adequate cost or price data. However, the
   information given to us by the FBI did not provide a basis to determine the
   reasonableness of the cost incurred for the RTU software licenses.
   Accordingly, we offer no opinion on the reasonableness of these costs.




          20
             Full-content interc ept activity includes call content as well as call-identifying
   information.

                                                - 14 -

                  Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


      In the Attorney General’s Ninth Annual Report to Congress on CALEA
(October 29, 2003), the FBI reported that these manufacturers were making
available to carriers dial-out software.21 According to the report, dial-out is
an efficient and effective way for law enforcement agencies to conduct
authorized electronic surveillance because it uses existing telephone lines
and does not require a time delay for carriers to establish additional lines
and facilities. As a result, the cost to both carriers and law enforcement
agencies should be significantly reduced according to the Report. The
effects of these agreements are not reflected in the tables above, which
show the extent to which RTU software is resident on carrier equipment.

       Flexible Deployment

      The FBI offered carriers three flexible deployment initiatives that the
FBI said were designed to provide cost savings and operational flexibility to
carriers to ensure that deployment of CALEA electronic surveillance solution
would occur. The carriers have the option under CALEA to petition the FCC
to permit deployment of their capability solutions after the FCC-mandated
deadlines. The FBI stated that it would support such petitions before the
FCC for those carriers who have approved flexible deployment plans. After
the FBI and a carrier agreed on a CALEA deployment schedule, the FBI
acknowledged the agreed-upon deployment timeline in a letter of support of
the carrier’s FCC petition.

      The first flexible deployment initiative was offered in January 2000.
Carriers were invited to voluntarily provide the FBI certain information
regarding their telecommunications systems and a timeline for activating
CALEA software provided under the RTU licensing agreements or otherwise
deploy a CALEA solution. The flexible deployment initiative also provided
carriers with the opportunity to petition the FCC for an extension of time
from the June 30, 2000, compliance date established by the FCC. The major
carriers petitioned the FCC and were granted an extension to June 2002,
which the FBI supported.

        The FBI offered a second flexible deployment initiative in August 2001,
for carriers with packet-mode communications equipment switches. This
initiative was similar in scope and intent to the first flexible deployment

       21
            CALEA requires the Attorney General to provide Congress with an annual report
on the amounts paid to carriers, the projected amounts to be paid in the current fiscal year,
and the equipment, facilities, or services for which the amounts were paid or are projected
to be paid.

                                           - 15 -

               Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


initiative. However, the FBI discontinued this initiative because of the
scarcity of technical standards for packet-mode systems.

      The FBI initiated a third flexible deployment initiative to permit carriers
to complete deployment of their electronic surveillance solutions within
normal business cycles in order to minimize carrier costs. In the Attorney
General’s Ninth Annual Report to Congress on CALEA (October 29, 2003),
the FBI stated that the FCC had provided extensions to the industry for
compliance with CALEA capability requirements to June 2000, and again to
June 2002. Pursuant to the third flexible deployment initiative, the major
carriers submitted petitions to the FCC in response to the FCC Public Notice
(Public Notice), dated September 28, 2001, to extend the June 30, 2002,
FCC-mandated CALEA compliance date. On April 28, 2003, the FBI advised
Verizon, BellSouth Telecommunications, and SBC that the FBI would not
support their petitions to the FCC because of the refusal by these carriers to
accommodate law enforcement’s high priority electronic surveillance needs.

      In this review, we requested from the FBI evidence of these carriers’
refusals to accommodate law enforcement’s high priority electronic
surveillance needs. FBI personnel advised us that a group of federal, state,
and local law enforcement officials called the Law Enforcement Technical
Forum (LETF) meets regularly to discuss technical matters relating to the
implementation of CALEA. FBI personnel stated that the minutes of
meetings of the LETF contained comments from state and local law
enforcement representatives indicating that law enforcement faced
significant problems because carriers had not yet completed deployment of
their electronic surveillance solutions. However, our review of these
minutes revealed no significant references to such problems. We asked FBI
personnel about this, and we were told that such comments had been made
at the forum meetings but evidently had not been recorded to the official
minutes.

      At the time of our audit, FBI representatives stated that the FCC had
not ruled on the carriers’ petitions. However, on page 6 of an FCC Public
Notice dated September 28, 2001, the FCC stated: “Upon the filing with the
Commission of a petition or supplement in accordance with the requirements
set forth in this Public Notice, the carrier will be deemed to have received a
preliminary extension for the period requested in its filing, but not to exceed
the two-year limit provided by Section 107(c)(3)(B) . . . ”. Therefore, this
suggests that the FCC endorsed the major carriers’ petitions to extend the
June 30, 2002, compliance date. The FBI stated that FCC’s granting of
repeated extensions to carriers of CALEA compliance date is adversely

                                     - 16 -

            Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


affecting law enforcement’s ability to carry out authorized electronic
surveillance. Yet, CALEA provides that the FCC should consider the
extensions in consultation with the Attorney General. Until recently, as
noted above, the FBI did not object to the extensions.

Current Issues Affecting the Implementation of CALEA

        Current issues affecting the implementation of CALEA include future
funding needs, emerging technologies for which electronic surveillance
standards are inadequate or not yet developed, and legislative changes to
facilitate CALEA implementation.

      Future Funding Needs


      Approximately $50 million in unobligated CALEA funds remain for
implementation of carrier technical solutions and other FBI funding priorities
as described below. Following is the total CALEA funding received and paid,
and the remaining obligated and unobligated funds.

      Appropriations                                 $456,976,876
      Funds from other sources22                       42,580,270
      Total Received [a]                             $499,557,146
       Less:
      Payments [b]                                   $441,367,124
      Obligations [c]                                $ 8,664,775

      Unobligated Funds: [a] less [b + c]            $ 49,525,247

       According to Congress’ July 1995 Office of Technology Assessment
report, entitled “Electronic Surveillance in a Digital Age,” the costs of CALEA
legislation and who should bear those costs were highly controversial issues.
The $500 million authorized for CALEA implementation was a compromise
among widely ranging cost estimates from industry and law enforcement.
Both industry’s and law enforcement’s cost estimates for modifying carrier
equipment and deploying electronic surveillance technology were based on
assumptions that were generally not backed by formal engineering cost
analysis.

      22
         The sources of these funds were the DOJ working capital fund - $40 million; U.S.
Customs Service - $1,580,270; and U.S. Postal Inspection Service - $1 million.

                                         - 17 -

              Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted



       Cost estimates for obtaining CALEA compliance have varied widely.
Prior to the enactment of CALEA, industry estimated that CALEA compliance
would cost from $3 to $5 billion, while the FBI Director estimated the cost to
be between $500 million and $1 billion. In 1998 and 1999, industry
estimates totaled $1.3 billion. Manufacturers initially requested $734 million
for the RTU software licenses, and negotiations between the FBI and
industry representatives reduced the final price to about $447 million. In
December 2003, the FBI estimated that an additional $204 million would be
necessary to complete deployment of CALEA solutions on carrier equipment
in high priority areas and to conduct other essential activities described
below.

      Regarding deployment of the carriers’ capability and capacity technical
solutions, the FBI’s Office of General Counsel issued a legal opinion, dated
September 1, 2000, which stated in part:

      [E]ntering into these [RTU software license] agreements does
      not guarantee that CALEA-compliant solutions will be operable
      and available for use by law enforcement. These agreements
      only ensure that right-to-use licenses for CALEA software will be
      made available to carriers at no additional charge . . . Additional
      monies will need to be authorized and appropriated by Congress
      to deploy the solutions fully. Although how much it will cost to
      install or deploy the solutions by carriers remains uncertain . . .

      The FBI estimated that approximately $254 million will be needed to
develop geo-location and trunk surveillance, implement capability
requirements on the highest priority switches, and obtain one additional RTU
dial-out agreement. The funds will also be used for potential CALEA section
109(b) petitions, the Nextel upstream solution, and other exigent
circumstances.23 However, the FBI can use approximately $50 million of
unobligated funds, resulting in about $204 million in new funds needed,
according to its estimates.

     For a variety of reasons, we are skeptical as to whether CALEA’s
implementation cost can be determined with any degree of specificity.

      23
           Wireless geo-location is a CALEA feature enhancement that would provide law
enforcement personnel with subject geographic locator information that is maintained by
telecommunications equipment. Trunk surveillance would assist law enforcement personnel
in surveillance of calls initiated through network-based features such as 800 numbers,
calling cards, and voice mail.
                                        - 18 -

              Proprietary/Commercial Information Redacted
              Proprietary/Commercial Information Redacted


These reasons include wide variances in past budget estimates, the
continued slow pace of CALEA implementation, and rapid technological
changes in the telecommunications field. We agree, however, that it is
highly unlikely that CALEA can be implemented with the $49.5 million that
remains unobligated from current funding.

      The FBI had not estimated the costs to meet CALEA capacity
requirements. Capacity refers to the ability of a carrier to conduct more
than one intercept simultaneous ly. In this regard, according to the FBI
report entitled, Status of Reimbursement for Capability and Capacity:

        The precise delineation of the modifications needed and
        the costs, which must be incurred to attain capacity for
        simultaneous intercepts, has not been established because
        the variety of technical solutions inhibits a single
        interpretation.

       The FBI hopes that evolving technologies will significantly reduce
capacity costs. For example, the dial-out technology described above should
permit the reduction of carrier capacity costs because electronic surveillance
will be conducted over existing phone lines rather than carriers having to
charge law enforcement for additional dedicated lines for such purposes.

        Emerging Telecommunications Technologies

      New technologies will continue to evolve that will require development
of additional electronic surveillance standards. Some of these technologies
are:

    •   Internet-based telecommunication services and packet-mode
        communication, which can be used via the internet or conventional
        telecommunication systems;

    •   Nontraditional wireless services, such as personal digital assistants
        (PDA);

    •   Internet hotspots, such as internet cafes that provide wi -fi or hard
        wired access points to one service;

    •   Walkie-talkie networks, such as Verizon’s push-to-talk;24 and

        24
            FBI personnel advised us that Motorola developed a CALEA solution that Nextel
uses for its walkie-talkie network.
                                          - 19 -

              Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted



   •   Third party calls using calling cards and toll free numbers for access.

     At the time CALEA legislation was introduced, the FBI Director
characterized the proposed legislation as necessary “to maintain
technological capabilities commensurate with the existing statutory
authority, that is, to prevent advanced telecommunications technology from
repealing de facto . . . authority already conferred by Congress.”

      The FBI is working with various industry standard-setting bodies to
develop electronic surveillance standards for new technologies. However,
carriers may be reluctant to adopt such standards because of the cost or
technological complexity. Therefore, we believe that the legal changes
addressed below will, if recommended by DOJ and adopted by Congress,
also assist the FBI in meeting the challenges of rapid technological change in
the telecommunications field.

       Legislative Issues

       In addition to future funding needs and emerging telecommunications
technologies, there are also a number of legislative issues to consider in fully
implementing CALEA. Although we discuss the legislative issues in this
section, it is not our intent to endorse any specific legislative change. The
FBI, in consultation with DOJ and the administration, must fully evaluate
each issue before recommending any legislative changes.

                            Information Services Exemption

      Currently, CALEA does not apply to “information services”. However,
vendors are currently offering phone service over the internet. Some
modification of the information services exemption may be necessary in
order to ensure that Voice-over-Internet-Protocol (VoIP) services are subject
to law enforcement requests for lawful electronic surveillance.

      The FBI provided one example of the controversy surrounding VoIP
carriers. In 2003, the Minnesota Public Utility Commission (MPUC) ruled
that Vonage Holdings, Inc. (Vonage), a VoIP carrier, was a telephone service
provider under Minnesota state law. As a result, Vonage was subject to
certain state regulations, such as those governing 911 emergency calling
services. Vonage petitioned both the Minnesota District Court for injunctive



                                     - 20 -

             Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


relief and the FCC for preemption of all state regulation on the grounds that
Vonage is an information service provider.

      The Minnesota District Court ruled in favor of Vonage. The Minnesota
Attorney General filed a petition on behalf of the MPUC, which was pending
at the time of our review. The FCC sought comment on Vonage’s petition
and the FBI filed comments stating that Vonage did not qualify for relief
because its VoIP service is a telecommunications service, not an information
service.

      FBI personnel stated that the regulatory counsel for Vonage advised
the FBI that CALEA definition of “telecommunications carrier” is flexible
enough to permit the imposition of CALEA responsibilities on vendors that
are not telecommunications carriers under Title II of the Communications
Act of 1934.

       The FCC issued a notice of proposed rule making, dated
February 14, 2002, that would classify wireline broadband internet access
and cable modem internet access services as information services. The DOJ
filed comments opposing such classifications that it believes will thwart the
purpose of CALEA. The FCC had yet to rule on these issues at the time of
our review.

       Potentially, VoIP services could be a dominant method of telephonic
communication in a few years. As the technology evolves, people will be
able to make phone calls over the internet using their PDAs. Carriers may
be forced to offer such services quickly because their costs should be
significantly reduced through the use of packet-mode technology versus
conventional communications technology.

                           Technical Standards Setting

      CALEA provides that the Attorney General consult with organizations
setting industry standards and others to ensure the efficient and industry-
wide implementation of CALEA capability requirements. Modifying the
Attorney General’s role with regard to electronic surveillance standard
setting could make CALEA standard setting more accountable, efficient, and
controllable and alleviate the current litigious atmosphere.




                                    - 21 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


                                   Cost Recovery

       Currently, CALEA states that the Attorney General may reimburse the
carriers for modifications to equipment, facilities, or services installed or
deployed on or before January 1, 1995, to meet the capability requirements.
If the Attorney General does not make such reimbursement, the carriers are
deemed in compliance with CALEA for such equipment. The carriers are
responsible for such modifications to equipment, facilities, and services
installed or deployed after January 1, 1995. However, the carriers may
request reimbursement for these modifications provided that the FCC has
ruled that such modifications are not otherwise reasonably achievable
because of being too costly, technically complex, or both. Amending the
mechanism by which carriers are reimbursed for deploying electronic
surveillance standards may also alleviate the non-cooperative atmosphere.

                                Extension Authority

       As noted above, Section 107 of CALEA provides authority to the FCC,
after consultation with the FBI, to grant extensions of time to carriers to
comply with CALEA capability standards with respect to their post-1995
equipment, facilities, and services. An extension may be granted for a
maximum of two years if the FCC determines that compliance with CALEA
capability requirements is not reasonably achievable using current
technology or technology is deficient or nonexistent. The FCC has granted
several extensions of time to carriers in the past that we reported on
previously. However, CALEA is silent on the number of extensions the FCC
may grant carriers under section 107.

                                    Enforcement

        Section 108 provides for court issuance of enforcement orders under
section 2522 of title 18, United States Code. Enforcement orders may be
issued by a court (1) that approved an electronic surveillance order with
which a carrier failed to comply, or (2) upon application by the Attorney
General in a civil action to obtain an order to direct a carrier, manufacturer,
or provider of telecommunications support services to comply with CALEA.
Enforcement orders may only be issued if a court finds that (1) another
carrier’s facilities are not reasonably available to conduct the authorized
electronic surveillance, and (2) the electronic surveillance is reasonably
achievable with available technology. A court issuing such an enforcement
order must allow a reasonable time period for compliance and may impose a


                                    - 22 -

            Proprietary/Commercial Information Redacted
             Proprietary/Commercial Information Redacted


civil penalty not to exceed $10,000 per day for each day of violation of such
enforcement order

       However, CALEA imposes strict limitations on enforcement orders
having to do with capacity, reasonable achievability, and modifications to
pre-January 1, 1995, equipment. First, a carrier may not be compelled to
comply with court ordered electronic surveillance if the carrier lacks
sufficient capacity and the government has not agreed to pay for such
capacity. Second, a carrier may not be forced to modify
post-January 1, 1995, equipment if the FCC has ruled under section 109(b)
of CALEA that such modifications will be too costly or technically complex.
Finally, a carrier may not be compelled to modify pre-January 1, 1995,
equipment unless the government agrees to pay for such modifications
provided that such equipment has not been replaced or significantly
upgraded.

      In our judgment, CALEA does not give additional powers to the FCC.
However, FBI personnel advised us that the Communication Act of 1934
provides the FCC with enforcement powers sufficient to compel carriers to
comply with CALEA requirements but, for whatever reason, the FCC has not
used such powers. According to FBI personnel, the FCC has very strong
enforcement powers over carriers in other areas such as local number
portability and enhanced 911.

       DOJ petitioned the FCC in March 2004, to attempt to resolve some
outstanding issues with regard to some of the legal considerations and
technology changes impacting CALEA implementation identified above.
These included but were not limited to: identification of services considered
to be packet-mode, establishment of a timeline and criteria for carrier
compliance with packet-mode standards and standards covering future
technology, a ruling that would assist in identification of future services and
entities that are subject to CALEA, establishment of procedures for
enforcement action against carriers that do not comply with CALEA, and
permission for carriers to recover CALEA implementation costs from their
customers. If the FCC does what is requested in the DOJ petition, we
believe that it would facilitate the implementation of CALEA.

Conclusion

      More than nine years since enactment, CALEA has not been fully
implemented. Among the causes for this delay are deficient and contested
electronic surveillance standards, contested cost recovery regulations,

                                     - 23 -

             Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


lengthy negotiations with industry representatives regarding the price for the
RTU licenses, and carrier cost proposals deemed unreasonable by the FBI.
The FBI has made available to carriers electronic surveillance software
developed by manufacturers, but the FBI does not know the extent to which
carriers have implemented the electronic surveillance solutions utilizing this
software. However, FBI personnel estimate that only 10 to 20 percent of
the wireline equipment switches are CALEA compliant. Additionally, FBI
personnel estimate that only one-half of the pre-January 1, 1995, carrier
wireless switches are CALEA compliant.

       Our review of nationwide electronic surveillance intercepts indicates
that intercept activity at the federal, state, and local level appears to be
increasing. But no statistics are kept on intercepts that were not conducted
because they were deemed too costly or because carrier equipment was not
compliant with CALEA requirements. The FBI was unable to state what
effect the delay in CALEA implementation has had on law enforcement’s
ability to conduct electronic surveillance.

      The FBI is concerned that the continual and rapid change in
telecommunications technology without concomitant electronic surveillance
solutions will adversely impact the ability of law enforcement to conduct
electronic surveillance. There are a number of legislative issues that the FBI
and DOJ need to evaluate that may assist the FBI in implementing CALEA in
the face of rapid technological change.

      The FBI has paid or obligated about $50 million during the current
reporting period for carrier purchases of the RTU enhanced dial-out software
licenses. The FBI determined that RTU license agreements were the most
cost effective vehicles to reimburse the carriers for the use of the
manufacturers’ software. The FBI prepared D&Fs to support this approach
because it was unable to obtain adequate cost or price data. However, the
information given to us by the FBI did not provide a basis to determine the
reasonableness of the cost incurred for the RTU software licenses.
Accordingly, we offer no opinion on the reasonableness of these costs.


Recommendations

We recommend that the FBI:

   1. Collect and maintain data on the number of carrier switches that are
      and are not CALEA compliant.

                                    - 24 -

            Proprietary/Commercial Information Redacted
         Proprietary/Commercial Information Redacted



2. Periodically survey state and local law enforcement to determine the
   extent to which delay in the implementation of CALEA is adversely
   impacting law enforcement’s ability to conduct lawful electronic
   surveillance.

3. Submit to Congress CALEA legislative changes necessary to ensure
   that lawful electronic surveillance is achieved expeditiously in the face
   of rapid technological change.




                                  - 25 -

         Proprietary/Commercial Information Redacted
               Proprietary/Commercial Information Redacted


                                                                            APPENDIX I

  CHRONOLOGY OF CALEA IMPLEMENTATION ACTIVITIES
          SINCE THE FY 1996 GAO REPORT

June 1996 - Capability Requirements Issued
      Law enforcement surveillance capabilities were developed in
consultation with other law enforcement agency and industry
representatives. These capabilities were issued in a document entitled,
Electronic Surveillance Interface (ESI) Document on June 24, 1996.25

October 1996 - Telecommunications Carrier Compliance Fund Established
      The Congress established the Telecommunications Carrier Compliance
Trust Fund (TCCF) and authorized agencies with law enforcement
responsibilities to deposit unobligated balances into the TCCF to assist in the
funding of CALEA implementation efforts, subject to Congressional
reprogramming requirements.

       The Congress appropriated $60 million as start -up funds to begin
CALEA implementation and deposited these funds in the TCCF. The Attorney
General also transferred $40 million of DOJ working capital funds to the
TCCF. Additionally, the U.S. Postal and Customs Services made
contributions to the TCCF of $1 million and $1.6 million, respectively, for a
total of $102.6 million available for CALEA implementation.

March 1997 - Implementation Plan Submitted
      The FBI submitted an implementation plan to Congress on March 3,
1997. The implementation plan included: (1) law enforcement
requirements for electronic surveillance, (2) a prioritized list of carrier
equipment to be modified to meet law enforcement requirements for
electronic surveillance; (3) capacity requirements; and (4) a projected
reimbursement plan. The FBI estimated that carrier reimbursements would
amount to $100 million a year for 5 years beginning in FY 1997.

March 1997 - Final Cost Recovery Regulations Published
      The FBI published final cost recovery regulations (28 CFR Part 100)
setting forth the procedures for carriers to follow in order to receive
reimbursement under CALEA. The cost recovery regulations state the:

       25
          Prior to issuance of the ESI, the FBI had issued electronic surveillance capabilities
in both 1994 (prior to the enactment of CALEA) and 1995. These documents contained the
punch-list capabilities.
                                            - 26 -

               Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


(1) criteria for determining allowable and unallowable costs,
(2) requirements carriers must meet in their submission of cost estimates
and requests for payments for the disbursements of funds, and (3) audit
requirements for CALEA implementation effort. The FBI also developed
requisite audit programs and procedures to audit carrier proposals and
agreements.

July 1997 - FCC Petition Filed
       The Cellular Telecommunications Industry Association (CTIA) filed a
petition with the FCC to establish electronic surveillance technical standards
to implement Section 103 of CALEA because: “. . . the standards process is
deadlocked, due . . . to unreasonable demands by law enforcement for more
surveillance features than either CALEA or the wiretap laws allow.” In its
petition the CTIA characterized the ESI as a de facto standard even though
CALEA expressly prohibits law enforcement from requiring any specific
design of systems or features or the adoption of any particular technology to
meet CALEA. The FCC did not rule on the CTIA petition.

January 1998 - Implementation Report Submitted
      The FBI reported to Congress on January 26, 1998, in response to a
Conference Committee Report (H. Rpt. 105-405) that directed the DOJ to
submit to the Committees on Appropriations a report that included: (1) cost
estimates for development and deployment of the proposed CALEA solution,
(2) a timeline for development and deployment of the solution, and (3) two
signed cooperative agreements with appropriate carriers.

      According to the implementation report, manufacturers reviewed the
punch-list requirements and none stated that these requirements were
impossible to meet. However, several of the manufacturers stated that
some of the requirements would be extremely difficult to meet. The
implementation report included no cost estimates for development and
deployment of a CALEA solution. Only one manufacturer permitted the FBI
to disclose pricing data in the implementation report.

      The implementation report provided a timeline that showed
manufacturers’ best estimates for deployment of solutions to permit carriers
to satisfy law enforcement requirements to intercept electronic
communications. Only one manufacturer expected to have a CALEA
compliant solution by the October 25, 1998, deadline. Based on
manufacturer timelines disclosed in the implementation report, the FBI
expected that the carriers would not be able to meet the October 25, 1998,


                                    - 27 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


deadline. According to the implementation report, the FBI had not entered
into any cooperative agreements with carriers at that time.

February 1998 - DOJ Position on the Capability Requirements Established
      The DOJ advised that 9 of the 11 punch-list capabilities contained in
the ESI were clearly within the scope of CALEA. The DOJ was willing to
compromise on one punch-list capability and acknowledged that one other
punch-list capability, although it would enhance the effectiveness of
electronic surveillance, was not required by CALEA. The DOJ stated that the
carriers’ interim standard was deficient in that it failed to address the nine
punch-list capabilities within the scope of CALEA.

      The carrier associations responded and disagreed that CALEA required
carriers to provide the punch-list capabilities. The carrier associations urged
the DOJ to accept the industry developed interim standard capability
standards.

March 1998 - Final Notice of Capacity Requirements Published
      The FBI published in the Federal Register the Final Notice of Capacity
Requirements, which superceded notices published on October 16, 1995 and
January 14, 1997. The carriers had 180 days to provide the FBI with a
statement of equipment that does not meet the capacity requirements. The
FBI would consider reimbursing carriers for modifications to equipment to
meet the capacity requirements.

March 1998 – FBI Petitioned the Federal Communications Commission
       On March 27, 1998, the FBI filed with the FCC a petition entitled Joint
Petition for Expedited Rulemaking Regarding Technical Requirements and
Standards, to compel carriers to adopt the government’s CALEA capability
requirements. This initiated a series of telecommunication industry and
government FCC filings to assist the FCC in its decision-making.

September 1998 – FCC Issued Memorandum Opinion and Order
      On September 11, 1998, the FCC granted an extension of the deadline
(October 28, 1998) for complying with CALEA capability requirements and
ruled that carriers must be compliant with the industry assistance
capabilities by June 30, 2000.

December 1998 – Attorney General’s Fourth Annual Report to Congress
      On December 10, 1998, the Attorney General issued the fourth annual
report to Congress on the implementation of CALEA.


                                    - 28 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


August 1999 – FCC Issued Second Report and Order
       On August 31, 1999, the FCC concluded that the language and
legislative history of CALEA provide sufficient guidance as to what the term
“telecommunications carrier” means. The FCC also issued guidance for
carriers seeking relief under CALEA reasonably achievable standard from
CALEA assistance capability requirements for equipment, facilities, or service
deployed after January 1, 1995.

August 1999 – FCC Issued Third Report and Order
      On August 31, 1999 the FCC ruled that by September 30, 2001,
carriers had to be compliant with six additional assistance capabilities sought
by the government but not included in the industry assistance capabilities.

September 1999 – FBI Entered into Agreement with Nortel and Ameritech
      On September 10, 1999, the FBI, Ameritech, and Nortel entered into
an agreement through which the FBI agreed to reimburse Ameritech for its
purchase of CALEA software RTU license from Nortel for its wireline systems.
This agreement further stipulated that the FBI would commit $101.8 million
for CALEA software RTU license for all carriers in the United States that used
Nortel’s equipment installed on or before January 1, 1995.

December 1999 – FBI Entered into Agreement with Nortel and AirTouch
      On December 29, 1999, the FBI, Nortel, and AirTouch entered into an
agreement through which the FBI agreed to reimburse AirTouch, and all
other carriers in the United States, for its purchase of CALEA software RTU
license from Nortel for its wireless system installed on or before January 1,
1995. The funds would come from the $101.8 million that was committed
pursuant to the FBI’s agreement with Nortel and Ameritech.

January 2000 – The Attorney General’s Fifth Annual Report
       On January 3, 2000, the Attorney General issued to the Congress the
fifth annual report on the implementation of CALEA.

January 2000 – The Flexible Deployment Guide was published
      The FBI published the Flexible Deployment Guide in January 2000. The
Guide requested carriers to submit certain information to the FBI and
explained under what circumstances the FBI might support a carrier’s
request to the FCC for an extension of the FCC-mandated deadlines.




                                    - 29 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


March 2000 – The FBI Agreement with Lucent and Bell Atlantic
       On March 31, 2000, the FBI entered into an agreement with Lucent
and Bell Atlantic to reimburse Bell Atlantic and certain other carriers $170
million for their purchase of the RTU software licenses from Lucent.

June 2000 – The FBI Agreement with AG Communication Systems and GTE
Communications Systems
      On June 30, 2000, the FBI entered into an agreement with AG
Communications Systems and GTE Communications Systems to reimburse
GTE Communications Systems $25 million for its purchase of the RTU
software license for the GTE telephone operating companies from AG
Communications Systems.

September 2000 – The FBI Agreement with Nortel, Motorola, and Nextel
      On September 29, 2000, the FBI entered into an agreement with
Nortel, Motorola, and Nextel to reimburse Nextel and certain other carriers
$17.9 million for their purchase of the RTU software licenses from Nortel.

October 2000 – The FBI Agreement with Siemens and Loretto
     On October 2, 2000, the FBI entered into an agreement with Siemens
and Loretto Telephone Company to reimburse Loretto $20 million for its
purchase of the RTU software license from Siemens.

January 2001 – The Attorney General’s Sixth Annual Report
      On January 9, 2001, the Attorney General issued to the Congress the
sixth annual report on the implementation of CALEA.

March 2001 – The FBI Agreement with Motorola and Nextel
      On March 28, 2001, the FBI, Motorola, and Nextel entered into an
agreement through which the FBI agreed to reimburse Nextel and certain
other carriers $25 million for their purchase of the RTU software licenses
from Motorola.

March 2001 – The FBI Agreement with Motorola
      On March 29, 2001, the FBI entered into a National Availability
Commitment with Motorola to reimburse carriers who use certain Motorola
equipment switches $30 million for their purchase of the RTU software
licenses from Motorola.




                                    - 30 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


August 2001 – The Flexible Deployment Assistance Guide Second Edition for
Packet-Mode Communications was published (Second Guide)
     The Guide requested carriers to submit certain information to the FBI
and explained under what circumstances the FBI might support a carrier’s
request to the FCC for an extension of the FCC-mandated deadlines.

September 2001 – The FBI Agreement with Siemens and Farmers
      On September 25, 2001, the FBI entered into an agreement with
Siemens and Farmers Telephone Company (Farmers) to reimburse Farmers
and certain other carriers $20 million for their purchase of the RTU software
licenses from Siemens.

December 2001 – The Attorney General’s Seventh Annual Report
      On December 13, 2001, the Attorney General issued to the Congress
the seventh annual report on the implementation of CALEA.

February 2002 – The FBI Agreement with Qwest
      On February 28, 2002, the FBI entered into an agreement with
Qwest to reimburse Qwest for its costs for deployment of its CALEA
solution in the Salt Lake City area for the 2002 Winter Olympics.

May 2002 – The 3rd Flexible Deployment Guide was published
      The FBI published the 3rd Flexible Deployment Guide in May 2002. The
Guide requested carriers to submit certain information to the FBI and
explained under what circumstances the FBI might support a carrier’s
request to the FCC for an extension of the FCC-mandated deadlines.

September 2002 – The FBI Agreement with Nortel and Qwest
      On September 25, 2002, the FBI entered into an agreement with
Nortel and Qwest to reimburse Qwest and certain other carriers $4.2 million
for their purchase of the RTU Enhanced Dial-Out software licenses from
Nortel.

September 2002 – The FBI Agreement with Lucent and TDS
     On September 30, 2002, the FBI entered into an agreement with
Lucent and TDS to reimburse TDS $19.4 million for its purchase of the RTU
Enhanced Dial-Out software license from Lucent.

November 2002 – The FBI Agreement with Siemens and TDS
     On November 15, 2002, the FBI entered into an agreement with
Siemens and TDS to reimburse TDS $15 million for its purchase of the RTU
Enhanced Dial-Out software licenses from Siemens.

                                    - 31 -

            Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted



April 2003 – The FBI Agreement with Nortel and Qwest
       On April 4, 2003, the FBI entered into an agreement with Nortel and
Qwest to reimburse Qwest $6 million for its purchase of the RTU Enhanced
Dial-Out software license from Nortel.

April 2003 – The FBI Agreement with Siemens and Loretto
       On April 24, 2003, the FBI entered into an agreement with Siemens
and Loretto Telephone Company to reimburse Loretto $4.8 million for its
purchase of the RTU Enhanced Dial-Out software license from Siemens.

May 2003 – The Attorney General’s Eighth Annual Report
      On May 16, 2003, the Attorney General issued to the Congress the
eighth annual report on the implementation of CALEA.

October 2003 – The Attorney General’s Ninth Annual Report
      On October 29, 2003, the Attorney General issued to the Congress the
ninth annual report on the implementation of CALEA.




                                   - 32 -

            Proprietary/Commercial Information Redacted
          Proprietary/Commercial Information Redacted


                                                           APPENDIX II

                  FCC ACTIONS ON PETITIONS

•   The DOJ filed a deficiency petition with the FCC in March 1998 because
    the J-Standard did not meet the additional nine punch-list capabilities
    that law enforcement was seeking. In September 1998, the FCC
    granted an extension to carriers of CALEA deadline for complying with
    CALEA capability requirements. For equipment installed or deployed
    after January 1, 1995, the FCC extended the deadline from
    October 28, 1998, to June 30, 2000.

•   In August 1999, the FCC ruled that carriers must comply with six of
    the additional punch-list requirements sought by the government and
    not included in J-Standard. The FCC gave carriers until September
    2001 to comply with these additional capability standards. The FCC
    also mandated that carriers provide the capability to intercept packet-
    mode communications by September 30, 2001.

•   The major carriers petitioned the FCC for an extension of complying
    with CALEA and were granted an extension to June 2002, which the
    FBI supported pursuant to the FBI’s approval of their flexible
    deployment plans.

•   The major carriers submitted petitions to the FCC in response to the
    FCC Public Notice dated September 28, 2001 to extend the June 30,
    2002, FCC-mandated CALEA compliance date. On April 28, 2003, the
    FBI advised Verizon, BellSouth Telecommunications, and SBC that the
    FBI would not support their petitions to the FCC because of the refusal
    by these carriers to accommodate law enforcement’s high priority
    electronic surveillance needs. At the time of our audit, FBI
    representatives stated that the FCC had not ruled on these petitions.

•   The FCC issued a notice of proposed rule making, dated February 14,
    2002 that would classify wireline broadband internet access and cable
    modem internet access services as information services. The DOJ filed
    comments opposing such classifications that it believes will thwart the
    purpose of CALEA. The FCC had yet to rule on these issues at the time
    of our review.




                                  - 33 -

          Proprietary/Commercial Information Redacted
            Proprietary/Commercial Information Redacted


                                                         APPENDIX III

                OBJECTIVES AND METHODOLOGY

     CALEA required the Comptroller General to report to Congress on the
implementation of CALEA biannually beginning April 1, 1996. CALEA was
subsequently amended to give the DOJ OIG this reporting responsibility.

      We performed the audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States. Our audit
covered CALEA enactment through December 2003. The DOJ OIG is
required by CALEA, as amended, to report to Congress biannually on the
equipment, facilities, and services that have been modified to comply with
CALEA capability and capacity requirements; whether FBI payments to
carriers for such modifications were reasonable and cost effective; and
projections of future costs for such modifications to meet CALEA capability
requirements. In this regard, carriers had made no modifications and the
FBI had made no payments to carriers for modifications with the exception
of an agreement with Qwest to deploy its CALEA solution in the Salt Lake
City area for the Winter Olympics.

     Our procedures were designed to determine the status of CALEA
implementation activities. We reviewed the FBI progress of implementing
CALEA since our last report. We also undertook a review of CALEA
implementation since the enactment of CALEA to ascertain the major
impediments to the full implementation of CALEA.




                                  - 34 -

            Proprietary/Commercial Information Redacted
   Proprietary/Commercial Information Redacted



                                         APPENDIX IV

FEDERAL BUREAU OF INVESTIGATION RESPONSE




                      - 35 -

   Proprietary/Commercial Information Redacted
Proprietary/Commercial Information Redacted




                   - 36 -

Proprietary/Commercial Information Redacted
          Proprietary/Commercial Information Redacted


                                                        APPENDIX V

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
 ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                 CLOSE THE REPORT

Recommendation Number:

  1. Resolved. In order to close this recommendation, please document
     the final management action taken to remedy the recommendation.

  2. Resolved. Same as recommendation 1.

  3. Resolved. Same as recommendation 1.




                                - 37 -

          Proprietary/Commercial Information Redacted
